U.S. Commodity Futures Trading Commission
Office of the Inspector General




            A Review Of Cost-Benefit Analyses Performed by the
          Commodity Futures Trading Commission in Connection with
           Rulemakings Undertaken Pursuant to the Dodd-Frank Act




                                            Prepared by the
                                            Office of the Inspector General
                                            Commodity Futures Trading Commission


                                            June 13, 2011
U.S. Commodity Futures Trading Commission
Office of the Inspector General



                                        EXECUTIVE SUMMARY

        The Office of the Inspector General for the Commodity Futures Trading Commission
reviewed the formulation of cost benefit analyses for four notices of proposed rulemakings
recently published by the Commodity Futures Trading Commission:
    1. Protection of Cleared Swaps, Customer Contracts and Collateral; Conforming
       Amendments to the Commodity Broker Bankruptcy Provisions, April 27, 2011, 76 FR
       33818 (June 9, 2011) (segregation/bankruptcy rule);

    2. Risk Management Requirements for Derivatives Clearing Organizations, 76 FR 3698
       (Jan 20, 2011) (DCO risk management rule);

    3. Swap Trading Relationship Documentation Requirements for Swap Dealers and Major
       Swap Participants, 76 FR 6715 (Feb. 8, 2011) (swap trading relationship documentation
       rule); and

    4. Core Principles and Other Requirements for Swap Execution Facilities, 76 FR 1214 (Jan.
       7, 2011) (SEF core principles rule).

       We undertook this review at the request of ten members of the Senate Committee on
Banking, Housing, and Urban Affairs. 1 We were asked to examine six factors in our review, and
were requested to complete it by June 13, 2011.

        In order to complete the review, we reviewed drafts of the cost-benefit analyses for the
four proposed rules, staff e-mail, and internal memoranda. In addition, we conducted interviews
with 28 CFTC employees at various staff and management levels who were involved with the
cost-benefit analyses processes for the four rules. Multiple interviews were conducted with some
employees.

        The cost-benefit analyses were created as follows. After the Dodd-Frank Act was
enacted,2 the Chairman and Division Directors created 30 rulemaking teams. 3 Because section
15(a)4 of the Commodity Exchange Act (the CEA)5 required the consideration of a cost-benefit
analysis for each rulemaking, the Office of General Counsel and Office of Chief Economist

1
  The Senators were: Senator Shelby (AL), Ranking Member; Senator Crapo (ID); Senator Corker (TN); Senator
DeMint (SC); Senator Vitter (LA); Senator Johanns (NE); Senator Toomey (PA); Senator Kirk (IL); Senator Moran
(KA); and Senator Wicker (MS).
2
  Dodd-Frank Wall Street Reform and Consumer Protection Act, Public Law 111-203, 124 Stat. 1376
(2010)(―Dodd-Frank Act‖ or ―Dodd-Frank‖). The text is available here in multiple formats:
http://www.cftc.gov/LawRegulation/DoddFrankAct/index.htm.
3
  A 31st team was later created and tasked with developing conforming rules to update the CFTC‘s existing
regulations to take into account the provisions of the Act. Testimony of Chairman Gary Gensler before the House
Committee on Agriculture, February 11, 2011, available at:
http://www.cftc.gov/PressRoom/SpeechesTestimony/opagensler-68.html.
4
  7 USC sec. 19.
5
  7 USC sec. 1, et seq.

                                                       i
U.S. Commodity Futures Trading Commission
Office of the Inspector General

created a uniform methodology for cost-benefit analysis for use by each rule-making team. That
methodology, contained in a September 2010 memo signed by the General Counsel and the
Chief Economist,6 set out in some detail the types of qualitative considerations that might inform
a cost-benefit analysis, encouraged the use of both qualitative and quantitative data, and included
a template for everyone to follow.

         Although the development of a uniform methodology appeared to be an equal effort
between the Office of General Counsel and the Office of Chief Economist, at the outset of the
rulemaking efforts the cost-benefit analyses involved less input from the Office of Chief
Economist, with the Office of General Counsel taking a dominant role. For three of the four
rules we reviewed, all published in January or February 2011, 7 the cost-benefit analyses were
drafted by Commission staff in divisions other than the Office of Chief Economist. In these
earlier rulemakings, staff from the Office of Chief Economist did review the drafts, but their
edits were not always accepted. In one rulemaking, the Office of Chief Economist did not
participate at all.

         To a greater or lesser extent for the three rules published in January and February of this
year, the Office of General Counsel appeared to have the greater ―say‖ in the proposed cost-
benefit analyses, and appeared to rely heavily on prior somewhat stripped down analysis. While
we offer no opinion on the legal sufficiency of this approach, we note that similar approaches to
economic analysis in the context of federal rulemaking have proved perilous for financial market
regulators.8 Moreover, it seems odd for an agency that regularly engages in economic analysis.
We recognize that cost-benefit analysis does not possess anywhere near the exactitude of, say,
calculus, but it does provide structure for evaluation. We made these same observations in an
earlier report addressing cost-benefit analyses in connection with Dodd-Frank rulemakings. 9 In
our earlier report, we noted that a more robust process was clearly permitted under the cost-
benefit guidance issued by the Office of General Counsel and the Office of Chief Economist in
September 2010, and recommended such an approach to cost-benefit analyses, with greater input
from the Office of Chief Economist.

        The segregation/bankruptcy rule, published June 9, 2011 (addressing segregation and
bankruptcy issues for cleared swaps),10 represents a more current effort by the Commission to
craft a cost-benefit analysis in connection with a Dodd-Frank rulemaking. Running to roughly
6,048 words, the cost-benefit analysis describes in great detail the potential cost impact of
several proposed segregation methods on market participants, including discussions of comments
received to an earlier advanced notice of proposed rulemaking published for this rule. While the

6
  See Exhibit 1.
7
  E.g., Risk Management Requirements for Derivatives Clearing Organizations, 76 FR 3698 (Jan 20, 2011); Swap
Trading Relationship Documentation Requirements for Swap Dealers and Major Swap Participants, 76 FR 6715
(Feb. 8, 2011); and Core Principles and Other Requirements for Swap Execution Facilities, 76 FR 1214 (Jan. 7,
2011).
8
  See, e.g., Am Equity Investment Life Ins. Co. v. S.E.C., 613 F.3d 166, 177-178 (D.C. Cir.2010); Chamber of
Commerce of U.S. v. S.E.C., 412 F.3d 133, 142-144 (D.C. Cir.2005).
9
  An Investigation Regarding Cost-Benefit Analyses Performed by the Commodity Futures Trading Commission in
connection with Rulemakings Undertaken Pursuant to the Dodd-Frank Act, page iv, available at:
http://www.cftc.gov/ucm/groups/public/@aboutcftc/documents/file/oig_investigationreport.pdf.
10
   76 FR 33818 (June 9, 2011).

                                                      ii
U.S. Commodity Futures Trading Commission
Office of the Inspector General

notice of proposed rulemaking for segregation and bankruptcy did not quantify the costs of
compliance with the proposed rule in detail, cost estimates received in comments were described,
and the Agency gave its opinions overall on the costs and benefits of the proposed segregation
options in a robust manner. The cost-benefit discussion included internal references to discrete
instances in the preamble where costs were discussed in greater detail.

        Our review of drafts of the cost-benefit analysis for the segregation/bankruptcy rule
indicates an evolution of the process from Fall 2010 to the present, with the cost-benefit analysis
section of this proposed rule beginning as little more than a recitation of the template (as seen
with the earlier proposed rules), and taking on greater detail in subsequent drafts, with substantial
input from the Office of Chief Economist.

        Our discussions with staff involved with the segregation/bankruptcy rule uniformly
indicated that the Office of Chief Economist drafted the bulk of the cost-benefit analysis
discussion, with the Office of General Counsel representatives suggesting edits, some of which
were not accepted by the representatives from the Office of Chief Economist. It appears that
issues were resolved to the satisfaction of both Offices, but it also appears clear that the Office of
Chief Economist for this rule had a greater say in the substance of the cost-benefit analysis and
in the outcome of most disputes. The Office of Chief Economist played an enhanced role.
While the cost-benefit analysis discussion did not include a description of internal CFTC costs to
implement the regulation, which we believe should not be overlooked, overall we were
impressed with the cost-benefit analysis included with this notice of proposed rulemaking.

        Earlier this year the Chairman initiated a review and revision of the earlier cost-benefit
analysis methodology crafted by the Office of General Counsel and Office of Chief Economist in
September 2010. The Office of General Counsel and Office of Chief Economist issued this new
cost-benefit analysis guidance in May 2011. By its terms the updated guidance is applicable
only to final rulemakings; however, it does clarify the role of the Office of Chief Economist,
stating that the Office of Chief Economist

       will have a staff person on each rulemaking team, who will provide quantitative
       and qualitative input with respect to the costs and benefits of the final rulemaking,
       who should employ price theory economics or similar methodology to assess the
       costs and benefits of a rulemaking, and who will review each draft cost-benefit
       discussion.

We are hopeful the new guidance, with its enhanced level of detailed instruction, will result in
more robust cost-benefit analyses for the final rulemakings.




                                                  iii
U.S. Commodity Futures Trading Commission
Office of the Inspector General




                                        CONTENTS
EXECUTIVE SUMMARY ......................................................................................................... i
BACKGROUND ........................................................................................................................1
   Section 15(a) of the Commodity Exchange Act (CEA) ............................................................1
   Methodology for Cost-Benefit Analysis Under the Dodd-Frank Act ........................................2
      Table 1 – Commission Rulemakings October 14, 2010 to March 10, 2011 ...........................4
      Table 2 –Proposed rules after March 10, 2011 ......................................................................6
The Commission‘s Cost-Benefit Analyses for Four Proposed Rules .......................................... 12
      1.    Protection of Cleared Swaps, Customer Contracts and Collateral; Conforming
      Amendments to the Commodity Broker Bankruptcy Provisions, June 9, 2011, 76 FR 33818
      (2011) (segregation/bankruptcy rule).................................................................................. 12
      Table 3 – Segregation model titles altered during the rulemaking process .......................... 14
      2. Risk Management Requirements for Derivatives Clearing Organizations, 76 FR 3698
      (Jan 20, 2011)(DCO risk management rule) ....................................................................... 16
      3. Swap Trading Relationship Documentation Requirements for Swap Dealers and Major
      Swap Participants, 76 FR 6715 (Feb. 8, 2011) (swap trading relationship documentation
      rule) ................................................................................................................................... 18
      4. Core Principles and Other Requirements for Swap Execution Facilities, 76 FR 1214
      (January 7, 2011)(SEF core principles rule)........................................................................ 20
CROSS-CUTTING ISSUES ASSOCIATED WITH THE FOUR PROPOSED RULES ............ 22
ANALYSIS OF THE SIX FACTORS POSED BY THE SENATORS ...................................... 25
   1. The quantitative methodologies the agency uses to evaluate the costs and benefits of
   proposed rules and the effects those rules could have on job creation and economic growth. . 25
   2. The qualitative methods the agency uses to categorize or rank the effects of proposed rules.
   .............................................................................................................................................. 25
   3. The extent to which the Agency considers alternative approaches to its proposed rules. .... 26
   4. The extent to which the Agency examines the costs, benefits, and economic impact of
   reasonable alternatives to its proposed rules. .......................................................................... 26
   5. The extent to which the agency seeks public input and expertise in evaluating the costs,
   benefits, and economic impact of its proposed rules, and the extent to which the agency
   incorporates the public input into its proposed rules. .............................................................. 26



                                                                        iv
U.S. Commodity Futures Trading Commission
Office of the Inspector General

   6. The extent to which the economic analysis performed by the agency with respect to its
   proposed rulemakings is transparent and the results are reproducible. .................................... 27
CONCLUSIONS AND RESTATEMENT OF RECOMMENDATIONS ................................... 27
EXHIBIT 1 ............................................................................................................................... 29
EXHIBIT 2 ............................................................................................................................... 33




                                                                     v
U.S. Commodity Futures Trading Commission
Office of the Inspector General




                                             BACKGROUND

Section 15(a) of the Commodity Exchange Act (CEA)

       Section 15(a) 11 sets out certain considerations regarding costs and benefits that the
Commission shall evaluate before promulgating regulations under the CEA. Added to the CEA
in 2000, 12 section 15(a) provides:

        (a) Costs and benefits.
          (1) In general. Before promulgating a regulation under this Act [7 USCS §§ 1 et
        seq.] or issuing an order (except as provided in paragraph (3)), the Commission
        shall consider the costs and benefits of the action of the Commission.

          (2) Considerations. The costs and benefits of the proposed Commission action
        shall be evaluated in light of—
            (A) considerations of protection of market participants and the public;
            (B) considerations of the efficiency, competitiveness, and financial integrity
        of futures markets;
            (C) considerations of price discovery;
            (D) considerations of sound risk management practices; and
            (E) other public interest considerations.

          (3) Applicability. This subsection does not apply to the following actions of the
        Commission:
            (A) An order that initiates, is part of, or is the result of an adjudicatory or
        investigative process of the Commission.
            (B) An emergency action.
            (C) A finding of fact regarding compliance with a requirement of the
        Commission.

       The legislative history for new section 15(a) is sparse, and appears to consist of this brief
statement:

        [The CFMA] amends section 15 of the CEA to add a new subsection (a) requiring
        the CFTC, before promulgating regulations and issuing orders, to consider the
        costs and benefits of its action. This does not apply to orders associated with an
        adjudicatory or investigative process, or to emergency actions or findings of fact
        regarding compliance with CFTC rules. 13

11
   7 USC section 19.
12
   Commodity Futures Modernization Act of 2000 (CFMA), Pub. L. No. 106-554, 114, sec. 1(a)(5), Stat. 2763 (Dec.
21, 2000).
13
   This statement is found in 106 H. Rpt. 711; Prt 1, *_____ (June 29, 2000); 106 S. Rpt. 390, *___ (August 25,
2000); and 106 H. Rpt. 711; Prt 3, *___ (September 6, 2000).

                                                      1
U.S. Commodity Futures Trading Commission
Office of the Inspector General


        CFTC first interpreted new section 15(a) in a proposed rule titled ―Addressing a New
Regulatory Framework for Trading Facilities, Intermediaries and Clearing Organizations‖:14
The proposed rule addressed section 15(a) in the preamble under the heading ―cost-benefit
analysis.‖ The discussion listed the five factors under section 15(a) and provided a brief,
qualitative discussion of associated benefits and costs for each factor. The CFTC‘s approach to
cost-benefit analysis under section 15(a) remained relatively consistent through the years, though
the Commission did drop the practice of separately listing the section 15(a) factors, and began
grouping the cost-benefit analysis with the sections addressing Paperwork Reduction Act and
Regulatory Flexibility Act compliance. 15 The Commission‘s compliance with section 15(a) has
never been challenged in the courts.


Methodology for Cost-Benefit Analysis Under the Dodd-Frank Act

      On July 21, 2010, President Obama signed the Dodd-Frank Wall Street Reform and
Consumer Protection Act.16 As described by the CFTC, Title VII of the Dodd-Frank Act
amended the Commodity Exchange Act 17 to

        …establish a comprehensive, new regulatory framework for swaps and security-
        based swaps. The legislation was enacted to reduce risk, increase transparency,
        and promote market integrity within the financial system by, among other things:
        (1) Providing for the registration and comprehensive regulation of swap dealers
        and major swap participants; (2) imposing clearing and trade execution
        requirements on standardized derivative products; (3) creating robust
        recordkeeping and real-time reporting regimes; and (4) enhancing the
        Commission‘s rulemaking and enforcement authorities with respect to, among
        others, all registered entities and intermediaries subject to the Commission‘s
        oversight.18

The Dodd-Frank Act requires the Commission ―to complete more than 60 rules within 360 days;
some have deadlines of 90, 180, or 270 days.‖19 CFTC began immediately to work on rule
implementation, including the cost-benefit analyses for the Dodd-Frank rules.

       From CFTC staff and management, we learned that in the early stages of rule drafting,
the goal was to create a uniform cost-benefit analysis methodology for all Dodd-Frank
rulemaking that would comply with section 15(a). Accordingly, the Office of General Counsel


14
   66 FR 14262 (March 9, 2001).
15
   See, e.g., Federal Speculative Position Limits for Referenced Energy Contracts and Associated Regulation, 75 FR
4144 (January 26, 2010).
16
   See fn. 2.
17
   7 USC section 1, et seq.
18
   Core Principles and Other Requirements for Designated Contract Markets; Proposed Rule, 75 FR 80572
(December 22, 2010).
19
   CFTC Strategic Plan 2011-2015, Financial Reform Legislation, available at:
http://www.cftc.gov/reports/strategicplan/2015/2015strategicplan06.html.

                                                        2
U.S. Commodity Futures Trading Commission
Office of the Inspector General

and Office of Chief Economist created the following template, which was distributed to staff on
September 29, 2010:


           TEMPLATE

           Section 15(a) of the CEA requires the Commission to consider the costs and
           benefits of its actions before issuing an order under the Act. By its terms, section
           15(a) does not require the Commission to quantify the costs and benefits of a rule
           or to determine whether the benefits of the order outweigh its costs; rather, it
           requires that the Commission ―consider‖ the costs and benefits of its actions.
           Section 15(a) further specifies that the costs and benefits shall be evaluated in
           light of five broad areas of market and public concern: (1) protection of market
           participants and the public; (2) efficiency, competitiveness and financial integrity
           of futures markets; (3) price discovery; (4) sound risk management practices; and
           (5) other public interest considerations. The Commission may in its discretion
           give greater weight to any one of the five enumerated areas and could in its
           discretion determine that, notwithstanding its costs, a particular rule is necessary
           or appropriate to protect the public interest or to effectuate any of the provisions
           or accomplish any of the purposes of the Act.

           Summary of proposed requirements. The proposed rule would [explain briefly
           the requirements of the rule]. 20

           Costs. With respect to costs, the Commission has determined that [draw
           conclusions about the costs of the rule, associating the appropriate cost-benefit
           categories either directly or by implication].

           Benefits. With respect to benefits, the Commission has determined that [draw
           conclusions about the benefits of the rule, associating the appropriate cost-benefit
           categories either directly or by implication].

           Public Comment. The Commission invites public comment on its cost-benefit
           considerations. Commenters are also are invited to submit any data or other
           information that they may have quantifying or qualifying the costs and benefits of
           the Proposal with their comment letters.

In addition, the General Counsel and Chief Economist issued the following guidance to be
followed when completing the template:

           In the cost-benefit section of a proposed or interim final rulemaking, an initial
           analysis of the Commission‘s views of the costs and benefits of the proposed rule
           should be presented so that interested parties may submit comments that
           challenge, defend, or provide additional support for the analysis. A declarative
           statement of the anticipated effects of the proposed rule should be provided, in
20
     Brackets in original. Bracketed text contains instruction to CFTC staff.

                                                            3
U.S. Commodity Futures Trading Commission
Office of the Inspector General

        addition to requesting that interested parties submit their views on the five cost-
        benefit considerations enumerated in section 15.

        Typically, the costs typically may be presented by describing a counterfactual –
        what the Commission expects will happen if the rule is not adopted, with
        reference to previous or anticipated events. The benefits should be provided in
        declarative form.
        …

        The costs discussion in the cost-benefit analysis section of a rulemaking should
        include a quantitative or qualitative description of the kinds of costs involved, and
        upon which parties they will be imposed. When presenting costs qualitatively, the
        costs should be compared to some relevant alternative to the rule (i.e., the
        benchmark). In many cases, the benchmark would be the status quo regulatory
        approach. In some contexts, however, an alternative benchmark may be
        appropriate. If the rulemaking was designed to avoid certain costs associated with
        an alternative rule that could have been imposed, it should be discussed here as
        well; essentially comparing the proposed rule to a second benchmark.
        …

        With respect to the benefits associated with a proposed rulemaking, the
        comparison should be to the same benchmark(s) identified in the discussion of
        costs, and again the discussion should highlight the kinds of benefits anticipated,
        and the likely affected parties. 21

        Since enactment of the Dodd-Frank Act, CFTC has published more than 50 proposed
rules, notices, or other requests related to the new law. 22 In a Federal Register release published
in May of this year extending certain comment periods to June 3, 2011,23 the CFTC listed the
following 32 Dodd-Frank ―rulemakings‖ proposed by the Commission, with their original
comment periods:

Table 1 – Commission Rulemakings October 14, 2010 to March 10, 2011

Proposed24 Title of rulemaking                                                                    Closed25
10/14/2010 Financial Resources Requirements for Derivatives Clearing                              12/13/2010
           Organizations
10/18/2010 Requirements for Derivatives Clearing Organizations, Designated                        11/17/2010
           Contract Markets, and Swap Execution Facilities Regarding the
           Mitigation of Conflicts of Interest.

21
   Memorandum: Guidance on and Template for Presenting Cost-Benefit Analyses for Commission Rulemakings,
September 29, 2010 (attached as Exhibit 1).
22
   Statement of Jill E. Sommers, Commissioner, Commodity Futures Trading Commission, Before the
Subcommittee on Oversight and Investigations, House Committee on Financial Services, March 30, 2011, available
at: http://financialservices.house.gov/media/pdf/033011sommers.pdf.
23
   76 FR 25274, *25275 (May 4, 2011).
24
   ―Proposed‖ means the publication date in the Federal Register.
25
   ―Closed‖ indicates the end for the comment period initially published with the notice.

                                                      4
U.S. Commodity Futures Trading Commission
Office of the Inspector General

Proposed   Title of rulemaking                                                  Closed
10/26/2010 Agricultural Commodity Definition                                    11/26/2010
11/2/2010 Process for Review of Swaps for Mandatory Clearing                    1/3/2011
11/3/2010   Investment of Customer Funds and Funds Held in an Account for       12/3/2010
           Foreign Futures and Foreign Options Transactions.
11/17/2010 Implementation of Conflicts of Interest Policies and Procedures by   1/18/2011
           Futures Commission Merchants and Introducing Brokers.
11/19/2010 Registration of Foreign Boards of Trade                              1/18/2011
11/19/2010 Designation of a Chief Compliance Officer; Required Compliance       1/18/2011
           Policies; and Annual Report of a Futures Commission Merchant,
           Swap Dealer, or Major Swap Participant.
11/23/2010 Regulations Establishing and Governing the Duties of Swap Dealers    1/24/2011
           and Major Swap Participants
11/23/2010 Implementation of Conflicts of Interest Policies and Procedures by   1/24/2011
           Swap Dealers and Major Swap Participants.
11/23/2010 Registration of Swap Dealers and Major Swap Participants             1/24/2011
12/3/2010 Protection of Collateral of Counterparties to Uncleared Swaps;        2/1/2011
           Treatment of Securities in a Portfolio Margining Account in a
           Commodity Broker Bankruptcy.
12/7/2010 Real-Time Public Reporting of Swap Transaction Data                   2/7/2011
12/8/2010 Swap Data Recordkeeping and Reporting Requirements                    2/7/2011
12/9/2010 Reporting, Recordkeeping, and Daily Trading Records Requirements      2/7/2011
           for Swap Dealers and Major Swap Participants.
12/13/2010 General Regulations and Derivatives Clearing Organizations           2/11/2011
12/15/2010 Information Management Requirements for Derivatives Clearing         2/14/2011
           Organizations
12/21/2010 17 CFR Part 1 Securities and Exchange Commission 17 CFR Part         2/22/2011
           240 Further Definition of ‗‗Swap Dealer,‘‘ ‗‗Security-Based Swap
           Dealer,‘‘ ‗‗Major Swap Participant,‘‘ ‗‗Major Security-Based Swap
           Participant‘‘ and ‗‗Eligible Contract Participant‘‘.
12/22/2010 Business Conduct Standards for Swap Dealers and Major Swap           2/22/2011
           Participants With Counterparties
12/22/2010 Core Principles and Other Requirements for Designated Contract       4/18/2011
           Markets
12/23/2010 Swap Data Repositories                                               2/22/2011
12/23/2010 End-User Exception to Mandatory Clearing of Swaps                    2/22/2011
12/28/2010 Confirmation, Portfolio Reconciliation, and Portfolio Compression    2/28/2011
           Requirements for Swap Dealers and Major Swap Participants.
1/6/2011   Governance Requirements for Derivatives Clearing Organizations,      3/7/2011
           Designated Contract Markets, and Swap Execution Facilities;
           Additional Requirements Regarding the Mitigation of Conflicts of
           Interest.
1/7/2011   Core Principles and Other Requirements for Swap Execution            3/8/2011
           Facilities



                                            5
U.S. Commodity Futures Trading Commission
Office of the Inspector General

Proposed        Title of rulemaking                                                                  Closed
1/20/2011       Risk Management Requirements for Derivatives Clearing                                4/25/2011
                Organizations
2/3/2011        Commodity Options and Agricultural Swaps                                             4/4/2011
2/8/2011        Swap Trading Relationship Documentation Requirements for Swap                        4/11/2011
                Dealers and Major Swap Participants
2/8/2011        Orderly Liquidation Termination Provision in Swap Trading                            4/11/2011
                Relationship Documentation for Swap Dealers and Major Swap
                Participants.
3/3/2011        Amendments to Commodity Pool Operator and Commodity Trading                          5/2/2011
                Advisor Regulations Resulting From the Dodd-Frank Act.
3/9/2011        Registration of Intermediaries                                                       5/9/2011
3/10/2011       Requirements for Processing, Clearing, and Transfer of Customer                      4/11/2011
                Positions

In addition to the rules listed above, since March 10, 2011, the following rules have been
proposed:


Table 2 –Proposed rules after March 10, 201126

Proposed        Title of proposed rule27                                                             Closed
4/25/2011       Swap data Recordkeeping and Reporting Requirements; Pre-                             6/9/2011
                Enactment and Transition Swaps
4/28/2011       Margin Requirements for Uncleared Swaps for Swap Dealers and                         7/11/2011
                Major Swap Participants
5/12/2011       Capital Requirements of Swap Dealers and Major Swap Participants                     7/11/2011
5/23/2011       Further Definition of ―Swap,‖ ―Security-Based Swap Agreement‖;                       7/22/2011
                Mixed Swaps; Security-Based Swap Agreement Recordkeeping
6/7/2011        Adaptation of Regulations to Incorporate Swaps                                       8/8/2011
6/9/2011        Protection of Cleared Swaps Customer Contracts and Collateral;                       8/8/2011
                Conforming Amendments to the Commodity Broker Bankruptcy
                Provisions

       The Commission issued 25 rulemakings prior to January 18, 2011. On January 18, 2011,
President Obama issued Executive Order (EO) 13563, Improving Regulation and Regulatory



26
   All CFTC proposed rules are available at: http://www.cftc.gov/LawRegulation/DoddFrankAct/Dodd-
FrankProposedRules/index.htm.
27
   This table does not include other Dodd-Frank Federal Register publications, such as advanced notices of proposed
rulemakings, corrections, and proposed interpretive orders. In addition to the proposed rules listed above, the
Commission after March 10, 2011, issued a proposed interpretive order (and terminated a prior advanced notice of
proposed rulemaking) addressing antidisruptive practices. Antidisruptive Practices Authority (Proposed Interpretive
Order), 76 FR 14943 (March 18, 2011); Antidisruptive Practices Authority (Advanced notice of proposed
rulemaking; notice of termination), 76 FR 14826 (March 18, 2011). The proposed interpretive order did not address
section 15(a) of the CEA. We offer no opinion regarding whether section 15(a) would apply to an interpretive order.

                                                        6
U.S. Commodity Futures Trading Commission
Office of the Inspector General

Review, 28 which instructed covered agencies to consider, among other things, costs and benefits
as follows:

         Each agency is directed to use the best available techniques to quantify
         anticipated present and future benefits and costs as accurately as possible. Where
         appropriate and permitted by law, each agency may consider (and discuss
         qualitatively) values that are difficult or impossible to quantify, including equity,
         human dignity, fairness, and distributive impacts.

                 ***
         Where relevant, feasible, and consistent with regulatory objectives, and to the
         extent permitted by law, each agency shall identify and consider regulatory
         approaches that reduce burdens and maintain flexibility and freedom of choice for
         the public.

By its terms, EO 13563 did not apply to the CFTC, however, in light of instructions contained in
EO 13563, CFTC tasked a new Dodd-Frank rulemaking team with developing conforming rules
to update the CFTC‘s existing regulations to take into account the provisions of the Executive
Order.29

       By Spring 2011, the cost-benefit analyses issued by the CFTC in connection with notices
of proposed rulemakings were the subject of various degrees of criticism by members of
Congress, CFTC Commissioners, the industry, and the media. On February 24, 2011,
Commissioner Sommers addressed her concerns regarding CFTC‘s cost-benefit analyses in her
opening statement before the CFTC Open Meeting on the Twelfth Series of Proposed
Rulemakings under the Dodd-Frank Act:

         I would like to talk about an issue that has become an increasing concern of mine
         – that is, our failure to conduct a thorough and meaningful cost-benefit analysis
         when we issue a proposed rule. The proposals we are voting on today, and the
         proposals we have voted on over the last several months, contain very short,
         boilerplate ―Cost-Benefit Analysis‖ sections. The ―Cost-Benefit Analysis‖ section
         of each proposal states that we have not attempted to quantify the cost of the
         proposal because Section 15(a) of the Commodity Exchange Act does not require
         the Commission to quantify the cost. Moreover, the ―Cost Benefit Analysis‖
         section of each proposal points out that all the Commission must do is ―consider‖
         the costs and benefits, and that we need not determine whether the benefits
         outweigh the costs.

         At the outset I ask, how can we appropriately consider costs and benefits if we
         make no attempt to quantify what the costs are? But more importantly from a
         good government perspective, while it is true that Section 15(a) of the
         Commodity Exchange Act does not require the Commission to quantify the cost

28
     76 FR 3821 (January 21, 2011).
29
   Testimony of Chairman Gary Gensler before the House Committee on Agriculture, February 10, 2011. Available
at: http://www.cftc.gov/PressRoom/SpeechesTestimony/opagensler-68.html.

                                                      7
U.S. Commodity Futures Trading Commission
Office of the Inspector General

        of a proposal, or to determine whether the benefits outweigh the costs, Section
        15(a) certainly does not prohibit the Commission from doing so. We simply have
        chosen not to.

        Clearly, when it comes to cost-benefit analysis, the Commission is merely
        complying with the absolute minimum requirements of the Commodity Exchange
        Act. That is not in keeping with the spirit of the President‘s recent Executive
        Order on ―Improving Regulation and Regulatory Review.‖ We owe the American
        public more than the absolute minimum. As we add layer upon layer of rules,
        regulations, restrictions and new duties, we should be attempting to quantify the
        costs of what we are proposing. And we should most certainly attempt to
        determine whether the costs outweigh the benefits. The public deserves this
        information and deserves the opportunity to comment on our analysis. That is
        good government. Our failure to conduct a critical analysis of costs and benefits
        simply because we are not required to is not good government.30

       Costs to implement Dodd-Frank were also emphasized by industry
representatives. At a meeting of the CFTC Technology Advisory Committee31 held on
March 1, 2011, the Commission was presented with a $1.8 billion cost estimate to
implement compliance with information technology requirements necessitated under
Dodd-Frank, for the top 15 large dealers.32

        A March 11, 2011 letter to the CFTC Inspector General from Representative
Frank D. Lucas, Chairman, House Committee on Agriculture, and Representative K.
Michael Conaway, Chairman, Subcommittee on General Farm Commodities and Risk,33
detailed the extent to which diverse market participants noted concerns regarding costs
and benefits issued in proposed Dodd-Frank rulemakings (as quoted here):

        From the Coalition of Derivatives End-Users, in a letter filed February 22, 2011
        to the Proposed Rule ―End-User Exception to Mandatory Clearing,‖ 75 FR 80747:

                "... the Commission has made no attempt to estimate or objectively value
                the costs imposed by this and other rulemakings under the Dodd-Frank
                Act. We believe the Commission‘s current approach does not satisfy the
                requirements of Section 15(a) (of the CEA).‖




30
   Jill Sommers, Opening Statement, Meeting on the Twelfth Series of Proposed Rulemakings Under the Dodd-
Frank Act, February 24, 2011 (available at:
http://www.cftc.gov/PressRoom/SpeechesTestimony/sommerstatement022411.html).
31
   Third Meeting of the Technology Advisory Committee, March 1, 2011, page 179, available at:
http://www.cftc.gov/ucm/groups/public/@newsroom/documents/file/tac_030111_transcript.pdf.
32
   Larry Tabb, Founder & CEO, TABB Group ,―Technology Implications and Costs of Dodd-Frank on Financial
Markets,‖ 9 (March 1, 2011), available at:
http://www.cftc.gov/ucm/groups/public/@swaps/documents/dfsubmission/tacpresentation030111_tabb.pdf.
33
   The letter is available here: http://agriculture.house.gov/pdf/letters/cftc_inspectorgeneral110311.pdf.

                                                      8
U.S. Commodity Futures Trading Commission
Office of the Inspector General

        From the Working Group of Commercial Energy Firms, in a letter filed December
        15, 2010 regarding the Proposed Rule ―Regulations Establishing and Governing
        the Duties of Swap Dealers and Major Swap Participants,‖ 75 FR 71297:

                ―In order for a commercial energy firm that is deemed a Swap Dealer or
                Major Swap Participant to implement a ―comprehensive risk management
                program‖... ... the Working Group estimates it will require at least five
                new full-time employees….which, at a minimum, is 63 times greater than
                the Commission‘s estimate‖ (11% of one full-time employee).

        Or similarly, an additional comment letter the Working Group filed on January
        24, 2011 regarding the same rule:

                ―The Commission estimates, for the purposes of the Paperwork Reduction
                Act, that the burden imposed by the Proposed Rules is $20,450. The
                Working Group estimates that, at a minimum, complying with the
                Proposed Rules would cost at least $418,440, or over 20 times the
                Commission‘s estimate.‖

        From the International Swaps and Derivatives Association in a letter filed
        February 28, 2011 in response to the Notice of proposed rulemaking
        ―Confirmation, Portfolio Reconciliation, and Portfolio Compression
        Requirements for Swap Dealers and Major Swap Participants‖ 75 FR 81519:

                ―We respectfully submit that the Commission‘s estimate of the cost of
                compliance with the Proposed Regulations is too low. The Commission
                pegs the upfront cost for technological improvements at $2400 for each
                SD and MSP, whereas at this juncture we believe that initial compliance
                with the Proposed Regulations will cost each such entity approximately
                $5-10 million.‖

        In response to the March 11, 2011, letter issued by Representatives Lucas and Conaway,
the CFTC OIG conducted an investigation into the cost-benefit analyses undertaken by the
CFTC in connection with four proposed rules, and issued a report on April 15, 2011, that
questioned the CFTC‘s cost-benefit analysis methodologies in some regards. 34 We were most
concerned that the consideration of costs and benefits was being approached as a legal issue
rather than an economic one, and that the process of section 15(a) compliance was being
controlled foremost by attorneys, with input from Agency economists sometimes being
overlooked or overruled by the attorneys. We agreed with a noted commenter that economic
analysis in the context of rulemaking ―is more than about satisfying procedural requirements for
regulatory rulemaking.‖35 We recommended that the Agency take more care in their analysis of


34
  See fn. 9.
35
  Testimony of James A. Overdahl, Vice President, National Economic Research Associates, Before the Committee
on Financial Services, Subcommittee on Oversight and Investigations, United States House of Representatives
March 30, 2011, available at: http://financialservices.house.gov/media/pdf/033011overdahl.pdf.

                                                      9
U.S. Commodity Futures Trading Commission
Office of the Inspector General

costs and benefits in numerous ways, emphasizing the need to conduct a more robust analysis
with greater input from the Agency economists.

         The Commission, in our opinion, has taken proactive steps to address concerns relating to
its cost-benefit analyses raised by all sources. On March 14, 2011, CFTC extended the original
comment period for the DCM Core Principles rulemaking from February 22, 2011, to April 18,
2011,36 and on April 27, 2011, the Commission extended the comment period for all
rulemakings, as follows:

        For all rulemakings listed herein for which the comment period has closed at the
        time of publication of this notice, the comment period is reopened until June 3,
        2011. For those rulemakings listed herein for which the comment period closes
        during the extension‘s comment period, the comment period is extended until
        June 3, 2011. The comment period of any rulemaking subject of this extension
        that closes after the extension‘s comment period shall remain open until the
        originally published closing date. All comments that were received after the close
        of the originally established comment period of each of the reopened rulemakings
        will be treated as if they were received during the reopened comment periods and
        need not be resubmitted.37

        On May 4, 2011, 10 Senators38 requested our review of four additional proposed
rules issued by the Commission under the Dodd-Frank Act:

     1. Protection of Cleared Swaps, Customer Contracts and Collateral; Conforming
        Amendments to the Commodity Broker Bankruptcy Provisions, 76 FR 33818 (June 9,
        2011) (segregation/bankruptcy rule);

     2. Risk Management Requirements for Derivatives Clearing Organizations, 76 FR 3698
        (Jan 20, 2011) (DCO risk management rule);

     3. Swap Trading Relationship Documentation Requirements for Swap Dealers and Major
        Swap Participants, 76 FR 6715 (Feb. 8, 2011) (swap trading relationship documentation
        rule); and

     4. Core Principles and Other Requirements for Swap Execution Facilities, 76 FR 1214 (Jan.
        7, 2011) (SEF core principles rule).

The 10 Senators requested our review of the following six issues pertaining to the
Commission‘s cost-benefit analyses:


36
   76 FR 14825 (March 18, 2011).
37
   Reopening and Extension of Comment Periods for Rulemakings Implementing the Dodd-Frank Wall Street
Reform and Consumer Protection Act, 76 FR 25274 (May 4, 2011).
38
   Senator Shelby (AL), Ranking Member; Senator Crapo (ID); Senator Corker (TN); Senator DeMint (SC); Senator
Vitter (LA); Senator Johanns (NE); Senator Toomey (PA); Senator Kirk (IL); Senator Moran (KA); and Senator
Wicker (MS).

                                                     10
U.S. Commodity Futures Trading Commission
Office of the Inspector General

       A. The quantitative methodologies the agency uses to evaluate the costs and benefits
          of proposed rules and the effects those rules could have on job creation and
          economic growth;

       B. The qualitative methods the agency uses to categorize or rank the effects of
          proposed rules;

       C. The extent to which the agency considers alternative approaches to its proposed
          rules;

       D. The extent to which the agency examines the costs, benefits, and economic impact
          of reasonable alternatives to its proposed rules;

       E. The extent to which the agency seeks public input and expertise in evaluating the
          costs, benefits, and economic impact of its proposed rules, and the extent to which
          the agency incorporates the public input into its proposed rules; and

       F. The extent to which the economic analysis performed by the agency with respect
          to its proposed rulemakings is transparent and the results are reproducible.


        During this period, the CFTC Chairman directed Agency management to issue guidance
to assist section 15(a) compliance in connection with final rulemakings under Dodd-Frank. On
May 13, 2011, the General Counsel and Chief Economist issued ―Staff Guidance on Cost-
Benefit Considerations for Final Rulemakings under the Dodd-Frank Act.‖39 The new guidance
encourages compliance with aspects of EO 12866, EO 13563, and OMB Circular A-4, and
contains detailed instructions. The guidance for final rulemakings states that the cost-benefit
analyses should reflect either or both of the following:

           1) Additional information provided by the comments on the proposed rule and any
           alternatives considered in the Proposed Rulemaking;

           2) Additional alternatives provided by the comments that would achieve the regulatory
           objectives.40

In addition, the guidance for final rulemakings states the cost-benefit section should:

           (1) respond to the meaningful and significant comments received either on the specific
           Cost-Benefit section in the proposed rulemaking or on the costs or benefits of the
           proposed Rulemaking in general and how the comments informed the Final Rulemaking;

           (2) discuss the anticipated costs and benefits of the Final Rulemaking including whether
           such costs or benefits may be meaningfully quantified, as well as for other alternatives


39
     See Exhibit 2.
40
     Id. page 3.

                                                   11
U.S. Commodity Futures Trading Commission
Office of the Inspector General

         that would achieve the regulatory objectives, relative to the baseline, by evaluating
         reliable data if such data is available;

         (3) provide a clear explanation of why the Final Ruelmaking is being adopted over the
         alternatives; and
                                                                         41
         (4) discuss whether and how costs or benefit were quantified.

        The new guidance for final rulemakings contains detailed instructions on when and under
what circumstances further cost- benefit analyses will be necessary in response to public
comments,42 the scope of any new analysis, 43 and when to quantify costs and benefits. 44 These
instructions are at times somewhat general, e.g., ―Costs and benefits should be quantified when it
is reasonably feasible and appropriate to do so.‖ However, detailed instructions are included to
cover many specific cost issues, such as the following:

         …costs of reporting and recordkeeping should be analyzed by asking what
         incremental cost will be imposed on a market participant over the cost that would
         exist under the baseline, and whether the costs that will be imposed will affect all
         market participants equally. When market participants will bear costs differently
         because the costs generally will be higher for small participants and lower for
         large participants, costs may be presented in terms of the anticipated effect on an
         average large participant and an average small participant. 45

        Examples of costs and benefits are described more thoroughly than in the
September 2010 guidance. 46 Instruction is also given regarding when and under what
circumstances to re-propose a rule for additional notice and comment, based on cost-
benefit analysis considerations.47 Finally, the new guidance responded in detail to each
recommendation and criticism suggested in the CFTC OIG report of April 15, 2011.


THE COMMISSION‘S COST-BENEFIT ANALYSES FOR FOUR PROPOSED RULES

1.       Protection of Cleared Swaps, Customer Contracts and Collateral; Conforming
         Amendments to the Commodity Broker Bankruptcy Provisions, June 9, 2011, 76 FR
         33818 (2011) (segregation/bankruptcy rule)

        Section 724(a) of the Dodd-Frank Act48 mandates that each futures commission merchant
(FCM) and derivatives clearing organization (DCO) ―segregate‖ customer collateral supporting
cleared swaps. The Commission states:

41
   Id. page 4-5.
42
   Id. page 5.
43
   Id. page 6.
44
   Id. page 7.
45
   Id. page 7.
46
   Id. page 8.
47
   Id. page 9-10.
48
   P.L. 110-203, 124 Stat. 1682 (July 21, 2010).

                                                   12
U.S. Commodity Futures Trading Commission
Office of the Inspector General


        In other words, the FCM and the DCO (i) must hold such customer collateral in
        an account (or location) that is separate from the property belonging to the FCM
        or DCO, and (ii) must not use the collateral of one customer to (A) cover the
        obligations of another customer or (B) the obligations of the FCM or DCO.49

Dodd-Frank section 724(b) addresses the bankruptcy treatment of cleared swaps. 50 The
segregation/bankruptcy proposed rule implemented the provisions of section 724. The team that
handled this rulemaking was based in the Division of Clearing and Intermediary Oversight, with
team members from each of the CFTC major divisions.

        Staff on the rulemaking team and management informed us that costs were raised early
and often with this rule, with clear issues regarding costs associated with the various options for
several segregation models (e.g., guarantee fund amounts) at the fore. Staff stated they received
opinions in an early public meeting 51 in favor of both the more costly and less costly options for
alternative segregation models. 52

        The Commission issued an Advanced Notice of Proposed Rulemaking on December 2,
2010, 53 seeking comment on four models for protecting the margin collateral posted by
customers to support cleared swaps transactions. The first two models grant non-defaulting
customers safety from loss in the event of default of other customers and the FCM, while the
second two models potentially put non-defaulting customers at risk of loss in the event of default
by other customers and the FCM:

        1. Full Physical Segregation—this option gave the most security to customers, as
        the DCO would not be able to access segregated funds of non-defaulting
        customers in the event of a default by other customers and the DCO and separate
        accounts would be maintained for each customer with no commingling. When
        the FCM maintains separate customer segregation accounts, the default of one
        customer has no effect of the value of a non-defaulting customer‘s account.



49
   76 FR 33818, *33819 (2011).
50
   P.L. 110-203, 124 Stat. 1684 (July 21, 2010).
51
   This public meeting held August 16, 2010. Participants included Bank of America Merrill Lynch, Barclays, Citi,
Credit Suisse, Deutsche Bank, Goldman, HSBC, JP Morgan, Katten, MF Global, Morgan Stanley, Newedge,
Nomura, Prudential, State Street, UBS, Macquarie, and RJ O'Brien. Information on Dodd-Frank public meetings is
available here: http://www.cftc.gov/LawRegulation/DoddFrankAct/ExternalMeetings/index.htm
52
   It should come as no surprise that more costly regulatory options may be preferred by some market participants.
There is historic evidence to suggest that market users value the strength of a market infrastructure over costs.
According to a November 1999 report by the Division of Economic Analysis of the CFTC, ―there is a lack of solid
evidence supporting the notion that disparities in regulatory schemes are having significant effects on the U.S.
competitive position." Div. of Economic Analysis, CFTC, The Global Competitiveness of U.S. Futures Markets
Revisited 36 (1999), available at http://www.cftc.gov/dea/compete/deacompete.htm (quoted in, Andrea M.
Corcoran, The Uses of New Capital Markets: Electronic Commerce and the Rules of the Game in an International
Marketplace, 49 Am. U.L. Rev. 581, 585 n.39 (2000)).
53
   Protection of Cleared Swaps Customers Before and After Commodity Broker Bankruptcies, 75 FR 75162
(December 2, 2010).

                                                       13
U.S. Commodity Futures Trading Commission
Office of the Inspector General

         2. Legal Segregation with Commingling – this option is almost identical to full
         physical segregation because it also would not permit the DCO to access
         segregated funds of non-defaulting customers of a defaulting FCM. However,
         because this model permits commingling of segregated customer funds by the
         FCM, if a default occurred the DCO would allocate collateral to customers based
         on information that the FCM provided the day prior to default, resulting in some
         investment risk depending on price movements on the day of default. That is, if a
         non-defaulting customer‘s swaps position gained in value on the day of the
         default, those gains would not be recognized.

         3. Moving Customers to the Back of the Waterfall – this more ominous-sounding
         segregation model would give customers less security because the DCO would be
         able to access the segregated funds of non-defaulting customers; however, such
         access would take place only if other sources of funds were depleted first.54
         Customer funds would be commingled, so the same investment risk would also
         exist with this model (as with Legal Segregation with Commingling).

         4. Baseline Model – this is simply the existing exchange-traded futures model. In
         this model customer funds would be commingled and the DCO would be able to
         access all customer collateral (both defaulting and non-defaulting customers could
         be accessed) after exhausting the property of the defaulting FCM.

        The Advanced Notice of Proposed Rulemaking generated 33 comments,55 and on April
27, 2011 the Commission issued the segregation/bankruptcy notice of proposed rulemaking for
publication in the Federal Register, and posted the proposed rule as submitted to the Federal
Register on the CFTC website. On June 9, 2011, the Federal Register published the notice of
proposed rulemaking. 56 The proposed rule renamed (and in our opinion further clarified) the
four segregation models as follows:

Table 3 – Segregation model titles altered during the rulemaking process

Advanced Notice of Proposed Rulemaking                      Notice of Proposed Rulemaking
Full Physical Segregation                                   Physical Segregation Model
Legal Segregation with Commingling                          Complete Legal Segregation Model
Moving Customers to the Back of the Waterfall               Legal Segregation with Recourse
Baseline Model                                              Futures Model

        The Commission discussed each model at length (regardless of its name) and tentatively
recommended the Complete Legal Segregation Model, while inviting comment on the Legal
Segregation with Recourse and Futures Models. The Commission also invited comment on the
feasibility of an optional approach.

54
   Thus, customers would be at the back of the ―waterfall,‖ presuming ―waterfall‖ is an apt metaphor for a default.
We hope it is not. The immediate difference between a waterfall and a FCM default (that occurs to us) is the
presence of attorneys.
55
   http://comments.cftc.gov/PublicComments/CommentList.aspx?id=912.
56
   76 FR 33818 (June 9, 2011).

                                                         14
U.S. Commodity Futures Trading Commission
Office of the Inspector General


        The segregation/bankruptcy rule represents a more current effort by the Commission to
craft a cost-benefit analysis in connection with a Dodd-Frank rulemaking and, with regard to
cost-benefit analysis, this notice of proposed rulemaking far surpassed others we have examined
in terms of thoroughness.

        Running to roughly 6,048 words, the cost-benefit analysis describes in great detail the
potential cost impact of the several proposed segregation models on market participants. The
Commission discussed the costs and benefits of the Complete Legal Segregation Model and the
Legal Segregation with Recourse Model in relation to a common baseline – namely, the Futures
Model. The Commission recognized that the direct effect of the Complete Legal Segregation
and the Legal Segregation with Recourse Models (as opposed to the Futures Model) is to protect
the cleared swaps customer collateral of non-defaulting customers against claims by the DCO in
the event of simultaneous default by one or more cleared swaps customers and their FCM.
Within this framework, costs were broken down into three types: operational costs, risk costs,
and costs associated with induced changes in behavior.

        Operational costs for FCMs would include costs associated with producing and
maintaining increased account information, and increased compliance costs. Not surprisingly,
precise dollar figures for these costs would hinge on the number and types of cleared swaps
customer accounts and other factors going to the size/volume of the FCM‘s business. The
Commission discussed cost estimates provided by commenters, and also noted there would be
costs faced by each DCO, likely of similar magnitude according to the Commission, unless the
DCO already maintained sufficient information to implement the Complete Legal Segregation
and the Legal Segregation with Recourse Models.

         Risk costs would refer to costs associated with reassigning liability in the event of
customer default under the Complete Legal Segregation Model or the Legal Segregation with
Recourse Model (compared with the Futures Model). The Commission noted vast disparities in
cost estimates expressed in comments to the advanced notice of proposed rulemaking issued for
this rule, and noted the difficulty attendant to translating a cleared swaps customer collateral or
guaranty fund increase to a cost increase in light of the fact that the funds are not lost and the
cost therefore is the difference between actual and anticipated returns on the same investment,
but for its use as collateral or guaranty.

        Costs associated with induced changes in behavior are described in some detail. The
Commission recognized concerns raised by commenters, to wit, that decreasing the customer‘s
risk of adverse impact in the event of default by another customer (and the FCM) through the
Complete Legal Segregation and Legal Segregation with Recourse Models will likely decrease
the customer‘s motivation to carefully research a FCM (and the FCM‘s other customers) prior to
opening an account. The Commission counters that the Complete Legal Segregation and Legal
Segregation with Recourse Models will instead motivate the FCMs and DCOs to carefully
research and monitor customers, and notes that the DCOs are in a better position to ―have good
information about the financial condition of both FCMs and customers.‖




                                                 15
U.S. Commodity Futures Trading Commission
Office of the Inspector General

        While the notice of proposed rulemaking for segregation and bankruptcy did not quantify
the costs of compliance with the proposed rule in detail, cost estimates received in comments
were described, and the Agency gave its opinions overall on the costs and benefits of the
proposed segregation options in a robust manner. The cost-benefit discussion included internal
references to discrete instances in the preamble where costs were discussed in greater detail, as
well as references in the preamble to the cost-benefit analysis section (for further discussion of
costs).

        Our review of drafts of the cost-benefit analysis for the segregation/bankruptcy rule
indicates an evolution of the process from Fall 2010 to April 2011, with the cost-benefit analysis
section beginning as little more than a recitation of the template (as seen with the earlier
proposed rules) prepared by an OGC attorney, and taking on greater detail in subsequent drafts,
with most drafting of the non-template portions crafted by the Office of Chief Economist, as well
as team members familiar with the technical aspects of the rule. The cost-benefit analysis was
referred to as the ―caboose‖ in staff e-mail, but the volume of documented discussion regarding
the relative costs associated with the various segregation models demonstrates the cost-benefit
analysis section was given heightened importance.

        Staff involved with the segregation/bankruptcy rule uniformly told us that the Office of
Chief Economist drafted the bulk of the cost-benefit analysis discussion, with the Office of
General Counsel representatives suggesting edits, some of which were not accepted by the
representatives from the Office of Chief Economist. It appears that issues were resolved to the
satisfaction of both Offices, but it also appears clear that the Office of Chief Economist for this
rule had a greater say in the substance of the cost-benefit analysis as well as the outcome of
disputes. It appears quite clear that the Office of Chief Economist played an enhanced role.
While the cost-benefit analysis discussion did not include a description of internal CFTC costs to
implement the regulation, which we believe should not be overlooked, overall we were very
impressed with the cost-benefit analysis included with this notice of proposed rulemaking.


2.         Risk Management Requirements for Derivatives Clearing Organizations, 76 FR 3698
           (Jan 20, 2011)(DCO risk management rule)

        Section 725(c) of the Dodd-Frank Act amended section 5b(c)(2) of the CEA, the section
that sets out core principles for Derivatives Clearing Organizations (DCOs). Existing core
principles dated from the CFMA, 57 and in accordance with the CFMA the Commission adopted
guidance for DCOs rather than regulations. The Dodd-Frank Act amended section 5b(c)(2) to
confirm that the Commission may adopt implementing regulations. In this proposed rulemaking
the Commission set out to implement six DCO core principles: Participant and Product
Eligibility (Core Principle C), Risk Management (Core Principle D), Settlement Procedures
(Core Principle E), Treatment of Funds (Core Principle F, Default Rules and Procedures (Core
Principle G), and System Safeguards (Core Principle I). As stated by the Commission, the rule
as proposed:



57
     Pub. L. 106-554, sec. 1(a)(5), 114 Stat. 2763.

                                                      16
U.S. Commodity Futures Trading Commission
Office of the Inspector General

           …would implement the participant and product eligibility, risk management,
           settlement procedures, treatment of funds, default procedures and system
           safeguards core principles for DCOs and would adopt an application form for
           DCO registration under the CEA, as amended by the Dodd-Frank Act.

        The team that handled this rulemaking was based in the Division of Clearing and
Intermediary Oversight, with team members from each of the CFTC major divisions. From our
discussions with staff, we understand that one team member took the lead drafting the technical
portions of the rule. She used the cost-benefit template included with the September 2010
guidance, copied some of what another Commission staffer had drafted for a (hopefully similar)
rule that apparently was determined appropriate for this rule also, and then sent the draft cost-
benefit analysis to Washington for further drafting, where the OGC representatives added some
edits. Staff working at the request of the team leader drafted additional language for the cost-
benefit analysis section of this rule, pulling in some costs described in the Paperwork Reduction
Act section, since these costs would be part of the overall costs. The Office of Chief Economist
had minimal involvement with this rulemaking. Initially two staffers from the Office of Chief
Economist were assigned to this rule; however, one was recused early in the process. The other
staff member told us he was assigned to six teams, and he simply did not get the chance to work
on this one and is not sure he read the cost-benefit analysis. We found no instances of e-mail
from staff in the Office of Chief Economist discussing the cost-benefit analysis for this rule.
       The cost-benefit analysis section of the preamble to the proposed rule for swaps
documentation contained roughly 645 words. The cost-benefit analysis quantifies the cost of
―recordkeeping requirements‖ and states the Commission‘s estimate of costs is $500 annually.
No explanation is given. Based on our discussions with staff, we knew to consult the Paperwork
Reduction Act section. The Paperwork Reduction Act section states:
           The proposed regulations would require each respondent to maintain records of
           all activities related to its business as a DCO, including all information required to
           be created, generated, or reported under part 39, including but not limited to the
           results of and methodology used for all tests, reviews, and calculations. The
           Commission staff estimates this would result in a total of one response per
           respondent on an annual basis and that respondents could expend up to $500
           annually, based on an hourly rate of $10, to comply with the proposed regulations.
           This would result in an aggregated cost of $6,000 per annum (12 respondents x
           $500).
           The proposed regulations also would require the submission of an application
           form by entities seeking to register as DCOs. The applicant burden is estimated to
           take, on average, approximately 400 hours, with an hourly rate ranging from $75-
           $400, for a total estimated cost of $100,000 per application. These estimates
           include the time needed to review instructions and to develop, acquire, install, and
           utilize technology and systems for the purposes of collecting, validating, and
           verifying information. Staff estimates that three entities will seek to register as a
           DCO on an annual basis.58


58
     76 FR at 3716-3717 (January 20, 2011).

                                                    17
U.S. Commodity Futures Trading Commission
Office of the Inspector General

        We noted that the $10/hour wage rate was not in line with hourly rates of pay estimated
for similar tasks described in the Paperwork Reduction Act sections of other rules proposed
under Dodd-Frank.59 We noted the Paperwork Reduction Act section did not state authority for
the $10/hour figure. We were told that the $10 figure was determined as the marginal cost of
this activity for an employee.
         Staff stressed that costs were considered throughout the rule-making process, and that
this rule was codifying what much of the industry is already doing, which may indicate lower
implementation costs. Indeed, the Commission stated:
        For purposes of this rulemaking, the estimated reporting and recordkeeping costs
        do not include other costs addressed by other rulemakings. However, the costs do
        take into account the costs of implementing certain reporting requirements which
        many DCOs already have in place, and thus, the actual costs to many DCOs may
        be far less than the Commission's estimates. 60

        On June 8, 2011, the Commission‘s public website indicated 101 comments or exparte
communications for this proposed rule. We reviewed some, but not all, of the comments, finding
several that claim that the rule as proposed will result in increased costs that are not warranted, or
are without corresponding benefit. 61
3.      Swap Trading Relationship Documentation Requirements for Swap Dealers and Major
        Swap Participants, 76 FR 6715 (Feb. 8, 2011) (swap trading relationship documentation
        rule)

        Section 731 of the Dodd-Frank Act added new section 4s to the Commodity Exchange
Act. Section 4s sets forth a number of requirements for swap dealers (SD) and major swap
participants (MSP). Specifically, section 4s(i) establishes swap documentation standards for
registered SD and MSP. Section 4s(i)(1) requires SD and MSP to ―conform‖ to Commission-set
standards relating to: timely and accurate confirmation, processing, netting, documentation, and
valuation of all swaps.‖ Section 4s(i)(2) requires the CFTC to adopt rules ―governing
documentation standards for swap dealers and major swap participants.‖ The swap relationship
documentation proposed rule implements section 4s(i) of the Act. The team that handled this
rulemaking was based in the Division of Clearing and Intermediary Oversight, with team
members from each of the CFTC major divisions.


59
   See, e.g., Regulations Establishing and Governing the Duties of Swap Dealers and Major Swap Participants, 75
FR 71397, 71402 (November 23, 2010)(hourly rate of $100, based on statistics produced by the Bureau of Labor,
applied for financial managers performing proposed recordkeeping requirements in connection with risk
management programs); cf., Further Definition of "Swap," "Security-Based Swap," and "Security-Based Swap
Agreement"; Mixed Swaps; Security-Based Swap Agreement Recordkeeping, 76 FR 29818, 29876 n.345 (May 23,
2011)(data from SIFMA's ―Management & Professional Earnings in the Securities Industry 2009,‖ modified by SEC
staff to account for an 1800-hour work-year and multiplied by 5.35 to account for bonuses, firm size, employee
benefits, and overhead, suggest that that the cost of an attorney is $ 316 per hour.)
60
   76 FR at 3717 (January 20, 2011).
61
   See, e.g., comment of CME Group, Inc., March 21, 2011; comment of Kansas City Board of Trade Clearing
Corporation, March 21, 2011; comment of National Energy Marketers Association, February 22, 2011. Comments
are available here: http://comments.cftc.gov/PublicComments/CommentList.aspx?id=957.

                                                      18
U.S. Commodity Futures Trading Commission
Office of the Inspector General

        The relationship documentation rule sets out detailed requirements for relationship
documentation that must accompany swap transactions, including terms addressing payment
obligations, netting of payments, events of default or other termination events, calculation and
netting of obligations upon terminations, transfer of rights and obligations, governing law,
valuation, and dispute resolution procedures.62 In addition, trading relationship documentation
must include certain swap transaction confirmations,63 descriptions of credit support
arrangements which include detailed margin information,64 and documentation of the methods
for determining the value of each swap at any time from execution to the termination of such
swap (by any means).65 Each SD and MSP must have at least 5% of their swaps trading
relationship documentation audited each year by an independent internal or external auditor.66
Records must be maintained in accordance with existing Commission regulations under the CEA
and produced on demand to CFTC and certain other regulators.67 Finally, SDs and MSPs must
notify the Commission and certain other regulators of any swap valuation dispute within
timeframes that vary (one business day or five business days) based on the status of the
counterparty as a SD/MSP, or not.68 Certain (and somewhat lesser) documentation must also be
maintained for swaps excepted from a mandatory clearing requirement.69

        Staff working on this rule told us that this proposed rule builds on efforts to standardize
swaps market practices dating back to 1995. They stressed that the rule does not propose
anything radically new. Nevertheless,‖ the Commission recognized that ―amending all existing
trading relationship documentation would present a substantial undertaking for the market.‖ We
agree. While the Commission also expressed its belief that much of the existing swap
documentation among SDs, MSPs and their counterparties ―likely would be in compliance‖ with
proposed documentation requirements, it nevertheless requested comment on a variety of factors
transparently designed to elicit alternatives that would cost less (or be less burdensome) to
implement. For instance, the Commission requested ―comment on an appropriate interval
following the effective date of the regulations after which to require compliance‖ In addition,
the Commission invited comment on whether to provide a safe harbor for dormant trading
relationships, whether to modify proposed regulations to reflect size differences among SD and
MSP or asset classes, and how long to defer the effective date of the proposed regulations in
order to permit regulatees to ―bring their existing documentation into compliance.‖
        The team leader for this group crafted the initial draft of the cost-benefit analysis. To the
extent that information included under the Paperwork Reduction Act section was reiterated in the
cost-benefit analysis section, this information was added by the team member who drafted the
Paperwork Reduction Act language for the proposed rule. Staff also stressed that costs were
considered throughout the process of crafting the technical portion of the rule and that the
Commission took care to request comment on a variety of aspects of the proposed rule, with a
view to finding more efficient and cost-effective ways to achieve the requirements of the Dodd-

62
   76 FR 6726 (February 8, 2011)(proposed 17 CFR 23.504(b)(1).
63
   Id. (proposed 17 CFR 23.504(b)(2)).
64
   Id. (proposed 17 CFR 23.504(b)(3)).
65
   Id. (proposed 17 CFR 23.504(b)(4)).
66
   Id. (proposed 17 CFR 23.504(c)).
67
   Id. (proposed 17 CFR 23.504(d)).
68
   Id. (proposed 17 CFR 23.504(e)).
69
   Id. (proposed 17 CFR 23.505).

                                                     19
U.S. Commodity Futures Trading Commission
Office of the Inspector General

Frank Act. Staff also noted that this rule was drafted and approved by the Commission on
January 13, 2011, prior to issuance of EO 13563. Staff said they were pleased that the
Commission extended the deadline for comment, and looked forward to implementing the new
guidance for cost-benefit analyses in connection with the final rule. Staff indicated that costs to
the CFTC to implement this rule were not addressed during the rulemaking process.
         The cost-benefit analysis section of the preamble to the proposed rule for swaps
documentation contained roughly 900 words. The cost-benefit analysis does not include a
quantification of any costs. Instead, the cost-benefit analysis states: ―the Commission has
determined that the cost that would be borne by [SDs and MSPs] to institute the policies and
procedures, make and maintain the records, and perform the event-based reporting necessary to
satisfy the new regulatory requirements are far outweighed by the benefits that would accrue to
the financial system as a whole as a result of the implementation of the rules.‖ The Commission
also opined that ―many, if not most‖ SDs and MSPs have already implemented documentation
practices, and thus the documentation requirements for such market participants ―may be limited
to amending existing documentation to expressly include any additional terms required‖ under
the new rules. While the Commission recognized that SDs and MSPs ―may face certain costs,
such as the legal fees associated with negotiating and drafting the required documentation
modifications,‖ it also recognized that these would largely be start-up costs and that as similar
―revisions would likely apply to multiple counterparties,‖ the start-up costs ―per counterparty‖
would be thereby reduced.
        The representative from the Office of the Chief Economist who worked on this rule has
since left the CFTC and was not reached for comment; however, the team members who crafted
the cost-benefit analysis believe the OCE representative did not have significant comment on the
cost-benefit portion of the preamble. E-mail supplied by staff indicate that the OCE
representative on the team received drafts of the rule as they were circulated to the team, but was
not included in discrete e-mail discussions addressing the cost-benefit analysis section, which as
stated by staff was written by the team leader with revisions by staff.
        As of June 8, 2011, the CFTC displayed 34 comments on its public website. We
identified no commenter quantifying costs; however, multiple commenters generally claimed the
rule as proposed would result in increased costs with little benefit, notably with regard to the
valuation requirement.70
4.      Core Principles and Other Requirements for Swap Execution Facilities, 76 FR 1214
        (January 7, 2011)(SEF core principles rule)

        The Dodd-Frank Act created ―Swap Execution Facilities‖ (SEF) – a new type of
regulated marketplace for the trading of swaps. 71 Section 723(a)(3) of Dodd-Frank added new
Section 2(h)(8) to the CEA to require that swaps subject to the clearing requirement of section
70
   See Comment by ISDA dated April 8, 2011, and Comment by Markit dated June 3, 2011, both available here:
http://comments.cftc.gov/PublicComments/CommentList.aspx?id=970.
71
   Congress defined SEFs as follows: ―The term ‗swap execution facility‘ means a trading system or platform in
which multiple participants have the ability to execute or trade swaps by accepting bids and offers made by multiple
participants in the facility or system, through any means of interstate commerce, including any trading facility,
that— (A) facilitates the execution of swaps between persons; and (B) is not a designated contract market.‖
P.L. 111-203, sec. 721, 124 Stat. 1670.

                                                        20
U.S. Commodity Futures Trading Commission
Office of the Inspector General

2(h)(1) of the CEA be executed either on a designated contract market (―DCM‖) or on a SEF,
unless no DCM or SEF made the swap‘ ―available for trading‖. Section 733 of the Dodd-Frank
Act also added Section 5h(a)(1), requiring that no person may operate a facility for the trading or
processing of swaps unless the facility is registered as a SEF or as a DCM. Section 733 of the
Dodd-Frank Act added new section 5h to the Commodity Exchange Act to provide a regulatory
framework of Commission oversight.

        This rule was known as the ―SEF core principles rule.‖ The proposed SEF core
principles rule implemented sections 723(a)(3) and 733 of Dodd-Frank. The team that handled
this rulemaking was based in the Division of Market Oversight, with team members from each of
the CFTC major divisions. Team members told us that the Office of General Counsel and the
Office of Chief Economist worked together on the cost-benefit analysis for the rule, and that
there were significant issues that were resolved by the team leader. The first draft of the cost-
benefit analysis, Regulatory Flexibility Act discussion and Paperwork Reduction Act discussion
was prepared by an attorney in the Office of General Counsel; however, the attorney took care to
leave blanks in the cost-benefit analysis section to be completed by representatives from the
Office of Chief Economist. The representatives from the Office of Chief Economist ―filled in
the blanks‖ as it were, and ran the draft by team members who made additional edits, and then
sent the edited version of the OCE draft back to the Office of General Counsel. A team member
from the Office of General Counsel then edited this new draft and distributed it back to team
members, including the Office of Chief Economist representatives, making minor edits. The
next day the team member then sent the draft to OGC management, specifically requesting
review of the cost-benefit analysis section. A new draft was prepared on the OGC side, and
distributed to team members (including the OCE representatives), and OGC management. The
new draft purported to ―incorporate the best of all worlds‖ and satisfy the September 2010
guidance on cost-benefit analysis. In a nutshell, the difference between the OCE approach and
the OGC approach centered on whether to break out for cost-benefit discussion specific tasks
within the rule, or to address the regulatory scheme as a whole.
         Following receipt of the new OGC version, the OCE representatives did not agree, and
submitted a revision that essentially re-introduced language addressing discrete sections of the
regulation. Attorneys in the Office of General Counsel expressed concern for the economists‘
approach, apparently believing the Commission needed to remain consistent in its interpretation
of section 15(a) that had been in place since 2000, and that stepping away from the
Commission‘s traditional interpretation of section 15 might carry a litigation risk. In any event,
interviews with staff also indicated some concern that addressing costs and benefits in
connection with certain provisions of the proposed rule while eschewing discussion of other
provisions could be misunderstood or misinterpreted by the public. It is not clear whether these
latter concerns were communicated to OCE.
        The General Counsel was made aware of the dispute and, after discussion with the team
leader, agreed that the OGC version could be published. While it appears that staff members in
the Chairman‘s office were also made aware of the dispute, resolution of this dispute appears
ultimately to have been made by the Team Leader, in consultation with the Director of the
Division of Market Oversight. The team leader understood that sign-off for the cost-benefit
analysis section was not required from OCE, and that any disputes would have to go to the
Chairman, but this one did not.

                                                21
U.S. Commodity Futures Trading Commission
Office of the Inspector General

        In any event, the OGC version was published. The cost-benefit analysis section of the
SEF core principles rule runs to roughly 607 words. The cost-benefit analysis consists of a very
bare-bones, minimalist analysis, with little detail given. Moreover, no detail is given regarding
costs to the Commission to oversee compliance with the core principles and regulatory
requirements for SEFs. Because it is so very brief, we copy the entire section titled ―Costs‖ here:
        As highlighted by recent events in the global credit markets, transacting of swaps
        in unregulated, over-the-counter markets does not contribute to the goal of
        stability in the broader financial markets. The public would continue to be at risk
        to such financial instability if certain derivatives were allowed to trade over the
        counter rather than on regulated exchanges. SEFs that determine to register with
        the Commission in order to provide for the transacting of swaps will be subject to
        core principles for transacting of swaps. If swaps were allowed to continue to be
        transacted bilaterally, rather than on the regulated market of a SEF, price
        discovery and transparency in the swaps markets would continue to be inhibited.
        These procedures are mandatory pursuant to the Dodd-Frank Act and any
        additional costs associated with these procedures are required by the
        implementation of the Dodd-Frank Act.
       Staff stressed to us that costs were considered throughout the drafting of this rule when
considering alternative approaches, and were discussed in public discussions of the rule.
However, all cost discussions were not documented.
        As of June 8, 2011, the Commission website displayed 104 comments (including ex parte
communications) received for this rule. Even a cursory review of the comments indicates
significant concerns regarding costs associated with compliance with the rule as proposed. 72
None of the commenters we reviewed quantified costs.


      CROSS-CUTTING ISSUES ASSOCIATED WITH THE FOUR PROPOSED RULES

        We are updating this section from our earlier report.73 For the four proposed rules
examined by this Office earlier this year, 74 we identified several cross-cutting concerns
raised by CFTC staff and management, or by our Office. We found the same issues
being voiced by staff associated with the four rules analyzed here as well, to a greater or
72
   See Comment from Morgan Stanley, March 2, 2011 (concern regarding transaction costs for market participants);
Comment from ISDA, March 8, 2011 (concern regarding hedging costs); Comment from the Farm Credit Counsel,
March 8, 2011 (concern regarding increased cost of financing for farmers if the rule is adopted as proposed).
Comments are available at http://comments.cftc.gov/PublicComments/CommentList.aspx?id=955.
73
   An Investigation Regarding Cost-Benefit Analyses Performed by the Commodity Futures Trading Commission in
connection with Rulemakings Undertaken Pursuant to the Dodd-Frank Act, 13 (April 15, 2011), available at:
http://www.cftc.gov/ucm/groups/public/@aboutcftc/documents/file/oig_investigationreport.pdf.
74
   The four earlier rules were: Further Defining ―Swap Dealer‖, ―Security-based Swap Dealer‖, ―Major Swap
Participant,‖ ―Major Security-based Swap Participant,‖ and ―Eligible Contract Participant, 75 FR 80174 (December
21, 2010) (Joint proposed rule; proposed interpretations); Confirmation, Portfolio Reconciliation, Compression
Requirements for Swap Dealers and Major Swap Participants,‖ 75 FR 81519 (December 28, 2010) (Notice of
proposed rulemaking); Core Principles and Other Requirements for Designated Contract Markets, 75 FR 80572
(December 22, 2010) (Notice of proposed rulemaking); Regulations Establishing and Governing the Duties of Swap
Dealers and Major Swap Participants, 75 FR 71397 (November 23, 2010) (Notice of proposed rulemaking).

                                                      22
U.S. Commodity Futures Trading Commission
Office of the Inspector General

lesser extent, and continue to believe they should shape any consideration of the
Commission‘s performance with regard to cost-benefit analyses. Issues raised across the
board by CFTC staff and management include:
1. Unprecedented Nature of the Regulatory Initiative/Paradigm Shift.
       From all CFTC divisions, the staff and management continued to emphasize that
Dodd-Frank required regulation of the swaps industry for the first time and therefore
presented unprecedented challenges. Consideration of costs and benefits associated with
proposed regulations without a parallel in the futures markets was described as a
formidable challenge.
2. Historic Difficulty of Quantifying Industry Costs.

        Staff and management agreed that, historically, the futures industry has not presented the
CFTC with quantified costs associated with compliance with existing or proposed regulations.
Staff opined that the industry considers compliance costs to be proprietary and confidential
information. Staff also opined that commenters would be highly unlikely to quantify projected
costs for compliance in the context of a federal rulemaking due to the fact that comments are
made available to the public.
         There was some difference in staff opinion expressed for the four rules examined for this
report as compared with the four rules examined with the last report. During fieldwork for our
earlier report, some staffers indicated that costs could be estimated by market participants for
those four particular rules. 75 Because our current review included proposed regulations
pertaining to swap execution facilities, staff stated that costs might not readily be estimated as
these will be new regulated entities. Moreover, management indicated that they have received
feedback to the effect that the cost of providing information to the Commission for purposes of
regulatory overhaul might not produce a corresponding benefit. Certainly there will be many
instances where operational cost information will not readily influence a Commission regulation;
however, we would posit that where operational cost information is relevant, analysis by the
Commission in a comparative fashion would likely enable the Commission to craft regulatory
solutions that foster a ―best practices‖ approach taking into account both costs and benefits.
3. Frustration with Confusion Surrounding the Paperwork Reduction Act.
        In our earlier report, we stated that staff expressed some frustration with a perceived
confusion of costs listed under the Paperwork Reduction Act (PRA)76 section of the proposed
rules as compared with the cost-benefit analysis, and expressed a desire to better explain PRA in
the future. We note with approval that the cost-benefit analysis guidance issued in connection
with final rulemakings under Dodd-Frank contains instructions to clearly differentiate between
PRA and cost-benefit considerations.



75
   An Investigation Regarding Cost-Benefit Analyses Performed by the Commodity Futures Trading Commission in
connection with Rulemakings Undertaken Pursuant to the Dodd-Frank Act, 14 (April 15, 2011), available at:
http://www.cftc.gov/ucm/groups/public/@aboutcftc/documents/file/oig_investigationreport.pdf.
76
   44 U.S.C. chapter 35; see 5 C.F.R. Part 1320.

                                                    23
U.S. Commodity Futures Trading Commission
Office of the Inspector General

4. Need to Avoid Addressing Costs and Benefits for the Mandatory Aspects of Dodd-Frank.
        To the extent the Dodd-Frank Act imposed mandatory requirements, staff uniformly
stressed a desire to refrain from expressing mandatory rules in terms of costs and benefits. If
Congress required certain conduct, necessarily the determination had been made that the benefits
would outweigh costs. We continued to hear similar comments, for instance, staff opined that an
analysis of the cost of not requiring segregation would not be appropriate where Congress has
required segregation for swaps customer funds. Thus, the costs of various segregation models
should be compared to a baseline futures model.
5. Costs were Considered During the Process of Constructing the Dodd-Frank Rules.
        While the creation of policies regarding the construct of cost-benefit analyses were the
province of the Office of the Chief Economist and Office of General Counsel, with Office of
General Counsel essentially granting final clearance for each rule, staff on the rule-making teams
stressed that costs were considered during the rulemaking process. In both internal discussions
and meetings with industry representatives 77 costs were raised with a view to determining how to
implement requirements that would result in less cost without sacrificing legitimate regulatory
needs.

       In addition to the five issues, above, our Office identified the following issues that
applied to all four rulemakings we reviewed in our earlier report, and again we repeat them here:
1. Section 15(a) Compliance was Grouped with PRA and Regulatory Flexibility Act
Discussions.
        For all four rules requested by the Senators, the cost-benefit analysis was placed at the
end of the preamble to the proposed text of the regulation, next to the PRA discussion and the
Regulatory Flexibility Act discussion. These three portions were considered non-technical and
we got the impression they were traditionally the province of the Office of General Counsel
rather than the CFTC staff tasked with crafting the technical details of the rule. The cost-benefit
analysis, PRA discussion, and Regulatory Flexibility Act discussion were referred to by team
members as the regulation‘s ―caboose.‖ This treatment of the cost-benefit analysis discussion
might have given the impression that it was merely an administrative task associated with the
rulemaking, rather than a substantive analysis of the rule. We were pleased to see the
segregation/bankruptcy rule present a far more robust approach to the cost-benefit analysis
drafting process, with cross-references to cost discussions in the preamble. Commission staff
also referred to this cost-benefit analysis as part of the ―caboose,‖ but because the cost-benefit
analysis was thorough, the term ―caboose‖ is not problematic.
2. Internal Costs Associated with Rule Implementation by CFTC were not Quantified.
        Across the board, staff and management alike indicated that CFTC‘s internal costs were
not calculated for purposes of analyzing the costs and benefits associated with the four proposed
rulemakings. CFTC management stated that staff labor necessary to implement Dodd-Frank had

77
  CFTC has had at least 675 meetings with outside individuals concerning the Dodd-Frank rules. Testimony of
Chairman Gary Gensler before the Senate Committee on Banking, Housing and Urban Affairs, April 12, 2011,
available at http://www.cftc.gov/PressRoom/SpeechesTestimony/opagensler-77.html.

                                                      24
U.S. Commodity Futures Trading Commission
Office of the Inspector General

been calculated overall by each Division, and these quantified estimates were included in CFTC
budget submissions, but the cost to implement each regulation had not been quantified.
Implementation costs were not reflected in the cost-benefit analyses for the four rules requested
for review, or in any other rules we reviewed. CFTC also did not quantify or estimate
opportunity costs, that is, the extent to which implementation of Dodd-Frank might be expected
to diminish regulatory efforts in other areas. We are pleased that the recent staff guidance for
cost-benefit analyses for the final Dodd-Frank rules states:
       [S]taff should consider the costs of implementation during its consideration of
       each final rulemaking. Staff should be prepared to present and discuss such costs
       and cost data, if any, with the Commission during the consideration of the final
       rulemaking.


              ANALYSIS OF THE SIX FACTORS POSED BY THE SENATORS

1. The quantitative methodologies the agency uses to evaluate the costs and benefits of proposed
rules and the effects those rules could have on job creation and economic growth.

        The Commission does not as a rule employ quantitative methodologies to evaluate the
costs and benefits of proposed rules at this time. They lack quantitative data, and their analysis
therefore is qualitative somewhat out of necessity. Cost estimates posited by market participants
through public meetings, communications and comments were compared and discussed in the
cost-benefit analysis for the segregation/bankruptcy rule, and to our knowledge they were not
independently verified. We are pleased that the recent staff guidance for cost-benefit analyses
for the final Dodd-Frank rules contains instruction on quantitative analysis, and states:

       Costs and benefits should be quantified when it is reasonably feasible and
       appropriate to do so. When quantitative data is not readily available, or it cannot
       be gathered with specificity with reasonable effort, estimates or ranges may be
       used, provided there is a reasonable basis for such estimates or ranges. The
       methodology used to estimate costs and benefits should be discussed in the
       rulemaking. As the Executive Order acknowledges, in some areas quantification
       is not possible, and in these areas qualitative measure should be used instead.

        Our discussions with management and staff indicated that the effect of the Dodd-Frank
regulations on job creation and economic growth overall were not considered as a major factor in
any rulemaking. The positive effect of the proposed rules on economic stability was a frequent
―benefit‖ stated in the cost-benefit analyses (or the cost of not acting was described as a ―cost‖).

2. The qualitative methods the agency uses to categorize or rank the effects of proposed rules.

       This factor is discussed earlier in this report at pages 2 through 4 (proposed rules), and 11
through 12 (final rules), of this report.
       As stated, CFTC began an initiative to rework and improve the cost-benefit methodology
under section 15(a) earlier this year, issuing staff guidance for the final rules under Dodd-Frank

                                                25
U.S. Commodity Futures Trading Commission
Office of the Inspector General

in May of this year. We are pleased with the specific responses to suggestions and
recommendations contained in our earlier report.

3. The extent to which the Agency considers alternative approaches to its proposed rules.

         Based on discussions with staff, we are satisfied that the Agency considers numerous
approaches to its proposed rules. We did not ask staff to tally the number of alternatives
considered in the process of crafting each technical detail for each of the proposed rules, but
certainly it became clear through review of the proposed rules and discussions with staff that
alternatives (and their cost implications) were discussed as a matter of course throughout the
drafting process though often without being documented in a preamble. There are numerous
examples in the four proposed rules we considered for this report and in the rules considered
earlier this year where either an alternative is disclosed with its reason for rejection stated, or the
Commission requests comment on costs and on alternatives to proposed regulations which, by
implication, indicates the Commission has considered alternative approaches. Moreover, the
number of public meetings and discussions related to the Dodd-Frank rulemakings indicates the
Commission strove to consider all competing approaches. While we cannot certify that every
possible regulatory alternative was considered by the Commission for each of the four
rulemakings, we received no indication from staff that alternatives had been eschewed out-of-
hand for any reason.
4. The extent to which the Agency examines the costs, benefits, and economic impact of
reasonable alternatives to its proposed rules.

        We are pleased with the extent to which the cost-benefit analysis of
segregation/bankruptcy rule described the costs and benefits of the alternative segregation
models. While the segregation/bankruptcy rule was described by staff as unique from the start in
terms of cost considerations due to the focus on costs associated with the various segregation
models, staff also indicated that the Commission is responding to the comments regarding costs-
benefit analyses received earlier this year, and to our first report (specifically with regard to
inserting in the cost-benefit analysis cross-references to further cost discussions in the preamble).
        The other proposed rules we examined clearly are lacking in this regard; however, we
would point out that the other three rules were published quite early in the Dodd-Frank
rulemaking process for the Commission. With regard to the three earlier rules we reviewed for
this report, the comments and recommendations contained in our earlier report would apply with
equal emphasis.78
5. The extent to which the agency seeks public input and expertise in evaluating the costs,
benefits, and economic impact of its proposed rules, and the extent to which the agency
incorporates the public input into its proposed rules.




78
  The latest cost-benefit analysis guidance contains a succinct summary of all recommendations and suggestions in
our first report. Exhibit 2, page 44-45 of this report (page 11 – 12 of the guidance).

                                                       26
U.S. Commodity Futures Trading Commission
Office of the Inspector General

        The Agency seeks public input and expertise in evaluating the costs, benefits, and
economic impact of its proposed rules to a great extent. The Chairman testified in February this
year that the Agency had held over 500 public meetings regarding the Dodd-Frank regulations. 79
Details regarding the public meetings are available on the CFTC website, 80 and staff and
management stressed that discussions regarding costs to comply with proposed regulatory
approaches permeates these meetings. The Commission has also held numerous round tables.

6. The extent to which the economic analysis performed by the agency with respect to its
proposed rulemakings is transparent and the results are reproducible.

       Economic analysis performed by the agency is largely qualitative at this time, and
transparent (where it is thorough). Unfortunately there is little quantitative data available to test.


              CONCLUSIONS AND RESTATEMENT OF RECOMMENDATIONS


        Since enactment of the Dodd-Frank Act, CFTC has published more than 50 proposed
rules, notices, or other requests related to the new law. 81 In accordance with section 15(a) of the
Act, CFTC has published cost-benefit analyses with each proposed rule. We examined the cost-
benefit analyses for four proposed rules dealing with the treatment of segregated funds of swaps
customers, derivatives clearing organization risk management requirements, swaps relationship
documentation requirements, and core principles for swap execution facilities. Three of the
proposed rules were issued prior to March of this year. The proposed rule addressing the
treatment of segregated funds of swaps customers was issued by the Commission on April 27,
2011.
         While the methodology initially adopted by the Office of General Counsel and the Office
of Chief Economist would permit a detailed and thorough approach to the task, in the three
earlier rules we examined it appears the Commission generally adopted a ―one size fits all‖
approach to section 15(a) compliance without giving significant regard to the deliberations
addressing idiosyncratic cost and benefit issues that were shaping each rule, and often addressed
in the preamble. We made the same comments in our earlier report addressing four other
proposed rules that were also issued early in the process. Our comments and recommendations
made in the earlier report fully apply to these three rules, and we have no additional
recommendations. 82


79
   Testimony of Chairman Gary Gensler before the House Committee on Agriculture, February 10, 2011.
http://www.cftc.gov/PressRoom/SpeechesTestimony/opagensler-68.html.
80
   http://www.cftc.gov/LawRegulation/DoddFrankAct/ExternalMeetings/index.htm.
81Statement of Jill E. Sommers, Commissioner, Commodity Futures Trading Commission, Before the
Subcommittee on Oversight and Investigations, House Committee on Financial Services, March 30, 2011, available
at: http://financialservices.house.gov/media/pdf/033011sommers.pdf .
82 See fn. 78.



                                                      27
U.S. Commodity Futures Trading Commission
Office of the Inspector General

         For the more recent cost-benefit analysis accompanying the proposed
segregation/bankruptcy rule, we are pleased with the cost-benefit discussion. Although staff told
us this rule was different with regard to cost considerations from the start, they also told us the
cost-benefit analysis section was influenced by concerns voiced this year regarding cost-benefit
analyses, including our earlier report. With regard to the segregation/bankruptcy rule, the only
deficiencies we detect – both minor – are the lack of clarification of the role of Paperwork
Reduction Act costs in the context of the cost-benefit analysis, and the lack of quantified costs to
the Agency to implement the regulation. Because the Agency currently includes with its budget
requests amounts necessary to implement the Dodd-Frank Act, we believe these costs could also
be discussed in the context of Dodd-Frank rulemakings. We believe internal Agency costs,
including opportunity costs, are relevant because they may influence the Commission's decisions
when faced with regulatory alternatives.

        We close by reiterating that, although we have raised concerns regarding both the
methodology and the resulting cost-benefit analyses with regard to certain aspects of the rules we
reviewed, a determination whether the cost benefit analyses would survive judicial scrutiny is not
the object of this review. The Commission‘s performance under section 15(a) of the Commodity
Exchange Act has never been challenged; however, in recent years the courts have identified
weaknesses in the application of economic analysis to regulatory decisions, resulting in rules
being sent back to regulators for further consideration. 83 As in our first report, we would suggest
that a more robust examination of costs and benefits should only enhance the Agency‘s ability to
defend its cost-benefit analyses.
       We again note with approval the recent cost-benefit analyses guidance for use with final
rulemakings recently issued by the Office of General Counsel and the Office of Chief
Economist. As before, we continue to recommend that the Office of Chief Economist take on an
enhanced or greater role under both the existing methodology and any future methodologies for
cost-benefit analyses for both proposed and final rules.




83 See, e.g., Am. Equity Investment Life Ins. Co. v. S.E.C., 613 F.3d 166, 177-178 (D.C. Cir. 2010) ; Chamber of
Commerce of U.S. v. S.E.C., 412 F.3d 133, 142-144 (D.C. Cir. 2005).



                                                        28
U.S. Commodity Futures Trading Commission
Office of the Inspector General




                       EXHIBIT 1




                                            Exhibit 1
                                                  29
U.S. Commodity Futures Trading Commission
Office of the Inspector General




                                            Exhibit 1
                                                  30
U.S. Commodity Futures Trading Commission
Office of the Inspector General




                                            Exhibit 1
                                                  31
U.S. Commodity Futures Trading Commission
Office of the Inspector General




                                            Exhibit 1
                                                  32
U.S. Commodity Futures Trading Commission
Office of the Inspector General




                       EXHIBIT 2




                                            Exhibit 2
                                                  33
U.S. Commodity Futures Trading Commission
Office of the Inspector General




                                            Exhibit 2
                                                  34
U.S. Commodity Futures Trading Commission
Office of the Inspector General




                                            Exhibit 2
                                                  35
U.S. Commodity Futures Trading Commission
Office of the Inspector General




                                            Exhibit 2
                                                  36
U.S. Commodity Futures Trading Commission
Office of the Inspector General




                                            Exhibit 2
                                                  37
U.S. Commodity Futures Trading Commission
Office of the Inspector General




                                            Exhibit 2
                                                  38
U.S. Commodity Futures Trading Commission
Office of the Inspector General




                                            Exhibit 2
                                                  39
U.S. Commodity Futures Trading Commission
Office of the Inspector General




                                            Exhibit 2
                                                  40
U.S. Commodity Futures Trading Commission
Office of the Inspector General




                                            Exhibit 2
                                                  41
U.S. Commodity Futures Trading Commission
Office of the Inspector General




                                            Exhibit 2
                                                  42
U.S. Commodity Futures Trading Commission
Office of the Inspector General




                                            Exhibit 2
                                                  43
U.S. Commodity Futures Trading Commission
Office of the Inspector General




                                            Exhibit 2
                                                  44
U.S. Commodity Futures Trading Commission
Office of the Inspector General




                                            Exhibit 2
                                                  45
